LAW OFFICES
RICHARD H. MARKOWTTZ
11 979-2016/
STEPHEN C. RICHMAN •
OUINTES D. TAGUOLI
JONATHAN WALTERS '•
THOMAS H. KOHN •• •
MATTHEW D. AREMAN
R. MATTHEW PETTIGREW, JR.
PETER H. oEmKovra
CLAIBORNE S. NEWLIN •••

ALLENTOWN OFFICE
PARKVIEW EAST BUILDING
SECOND FLOOR
121 NORTH CEDAR CREST BOULEVARD
ALLENTOWN. PA I 8 I 04
1810) 820-9531

MARKOWITZ & RICHMAN
123 SOUTH BROAD STREET
SUITE 2020
PHILADELPHIA. PENNSYLVANIA 1 9109

NEW JERSEY OFFICE
24 WILKINS AVENUE
HADDONFIELD, NJ 08033
(856) 6 16.2930

(2 1 5) 875-3100

• •

FAX (2 1 5) 790-0668
WVVW.MARKOW(TZANDRICHMAN_COM

OF COUNSEL
PAULA R. MARKOWITZ
RICHARD KIRSCHNER •
M. KAY GARTRELL

NEW YORK OFFICE
39 BROADWAY
SUITE 1 620
NEW YORK. NY 10006
1800) 590-4561

215-875-3128

ALSO ADMITTED IN NEW YORK
AND DISTRICT OF COLUMBIA
ALSO ADMITTED IN NEW JERSEY
-• ALSO Aomirreo IN DISTRICT OF COLUMBIA
• • ALSO ADMITTED IN DELAWARE AND NEW JERSEY
• ALSO ADMITTED IN NEW JERSEY AND NEW YORK
• • ALSO ADMITTED IN VIRGINIA
AND DISTRICT OF COLUMBIA
ALSO ADMITTED IN DISTRICT OF COLUMBIA
AND NORTH CAROLINA

February 9, 2021
DELAWARE OFFICE
1225 NORTH KING STREET
SUITE 804
WILMINGTON, DE 19801
(302) 656-2308

VIA OVERNIGHT DELIVERY ONLY
The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

File No: 57-12-1897

City of Newark v. Fraternal Order of Police, Newark Lodge No. 12
Supreme Court of the United States - Dkt. No. 20-989

Dear Mr. Harris:
As your records will reflect, this office represents the respondent, Fraternal Order of
Police, Newark Lodge No. 12 ("FOP") in the above-captioned matter.
I write to advise that in accordance with Rule 37.2(a) of the Rules of the Supreme Court
of the United States, respondent FOP grants blanket consent to the filing of amicus curiae briefs
in support of any party (or no party), both prior to the Court's consideration of the petition for
writ of certiorari, and, if certiorari is granted, in the case before the court at oral argument.
I note for the record that I am not currently a member of the Bar of the Supreme Court,
and I acknowledge that any submission in response to the Petition must be filed by a Bar
member.
t,
Re ectfully submitt

L

:$
V e 7
MATTHEW D. AREMAN
MDA:cat
cc:

Alan Silber, Esquire (VIA EMAIL: asilber@pashmanstein.com)

.....,

